SIGAR
    \5OK AY 12/19/2013

                                       Special Inspector General for
                                        Afghanistan Reconstruction




                                                  SIGAR 14-15 Financial Audit




      USAID’s Initiative to Promote Afghan Civil Society Project:
      Audit of Costs Incurred by Counterpart International, Inc.




                                                    JANUARY
                                                                2014

SIGAR 14-15–FA / I-PACS project
January 3, 2014


Dr. Rajiv Shah
Administrator, U.S. Agency for International Development

Mr. William Hammink
Afghanistan Mission Director, U.S. Agency for International Development


This letter transmits the results of our audit of costs incurred by Counterpart International, Inc. under a
cooperative agreement with the U.S. Agency for International Development (USAID) for its Initiative to Promote
Afghan Civil Society project. 1 The audit covered the period January 3, 2005, through September 30, 2010, and
was performed by Mayer Hoffman McCann P.C. It covered $27,179,524 in expenditures.
The purpose of USAID’s Initiative to Promote Afghan Civil Society project was to assist in the “expansion of a
vibrant Afghan civil society” through capacity building and technical assistance, implementation of an enabling
non-governmental organization law, and the award and administration of small grants to civil society
organizations. The goal of the original Initiative to Promote Afghan Civil Society program was to help Afghan
citizens to participate in the political process effectively.
The objectives of this financial audit were to

    •    render an opinion on the fair presentation of Counterpart International, Inc.’s Fund Accountability
         Statement; 2
    •    determine and report on whether Counterpart International, Inc. has taken corrective action on
         recommendations from prior audits or assessments;
    •    identify and report on significant deficiencies, including any material weaknesses, in Counterpart
         International, Inc.’s internal control over financial reporting; and
    •    identify and report on instances of material noncompliance with terms of the award and applicable
         laws and regulations.
In contracting with an independent public accounting firm and drawing from the results of its audit, SIGAR is
required by auditing standards to provide oversight of the audit work performed. Accordingly, SIGAR reviewed
Mayer Hoffman McCann P.C.’s audit results and found them to be in accordance with generally accepted
government auditing standards.
Mayer Hoffman McCann P.C. found that, except for the possible effects of questioned costs totaling $815,317,
the Fund Accountability Statement presented fairly, in all material respects, revenues received and costs
incurred under the agreement. Mayer Hoffman McCann P.C. identified 25 prior audit findings with a potential
material effect on the statement. Adequate corrective actions were taken on all of them. Mayer Hoffman
McCann P.C. identified one material weakness in internal control and one instance of noncompliance. These




1 Cooperative Agreement No. 306-A-00-05-00511-00.
2 The Fund Accountability Statement is a special purpose financial statement that includes all revenues received, costs
incurred, and any remaining balance for a given award during a given period.
findings prompted the auditors to question a total of $815,317 in unsupported costs. 3 The audit did not
identify any ineligible costs. 4 See table 1 below.
Table 1 - Summary of Questioned Costs
 Category                                     Questioned Costs Total             Ineligible                   Unsupported

 Salaries and fringe benefits                                  $102,835                                           $102,835

 Sub awards                                                     $12,870                                            $12,870

 Grant Programs                                                $220,570                                           $220,570

 Other Direct Costs                                            $352,855                                           $352,855

 Indirect Costs                                                $126,187                                           $126,187

 Totals                                                        $815,317             $0                            $815,317



Given the results of the audit, SIGAR recommends that USAID:
     1. Determine the allowability of and recover, as appropriate, $815,317 in questioned costs identified in
        the report.
     2. Advise Counterpart International, Inc to address the one internal control finding identified in the
        report.
We will be following up with your agency to obtain information on the corrective actions taken in response to
our recommendations.




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction




(F-020)




3 Unsupported costs are those costs for which adequate or sufficient documentation necessary for the auditor to determine

the propriety of costs was not made available.
4 Ineligible costs are costs that the auditor has determined to be unallowable. These costs are recommended for exclusion

from the Fund Accountability Statement and review by USAID to make a final determination regarding allowability.




                                                           2
        COUNTERPART INTERNATIONAL, INC.

        Financial Audit of Costs Incurred Under
    Cooperative Agreement No. 306-A-00-05-00511-00

For the Period January 3, 2005 through September 30, 2010
                            COUNTERPART INTERNATIONAL, INC.

                              Financial Audit of Costs Incurred Under
                         Cooperative Agreement No. 306-A-00-05-00511-00

                     For the Period January 3, 2005 through September 30, 2010


                                          Table of Contents


                                                                                 Page
Summary:
 Background                                                                       1
 Objectives, Scope and Methodology                                                1
 Summary of Results                                                               4
 Summary of Counterpart’s Responses to Findings                                   6
 Review of Prior Audit Recommendations                                            7

Independent Auditors’ Report on Fund Accountability Statement                     10

Fund Accountability Statement                                                     12

Notes to Fund Accountability Statement                                            13

Independent Auditors’ Report on Internal Control                                  18

Independent Auditors’ Report on Compliance                                        20

Findings and Responses                                                            21

Appendices:
 Appendix A: Response to Findings                                                 26
 Appendix B: Auditors’ Rebuttal to Counterpart Response to the Findings           29
 Appendix C: Review of Prior Findings and Recommendations                         30
                             COUNTERPART INTERNATIONAL, INC.

                                Financial Audit of Costs Incurred Under
                           Cooperative Agreement No. 306-A-00-05-00511-00

                      For the Period January 3, 2005 through September 30, 2010


SUMMARY

Background

On January 3, 2005, the United States Agency for International (USAID) awarded Cooperative
Agreement No. 306-A-00-05-00511-00 (Agreement) to Counterpart International, Inc. (Counterpart) in
the amount of $15,535,361. The initial period of performance was from January 3, 2005 through
January 2, 2008. The Agreement was modified a total of 14 times, resulting in an extension of the
period of performance through September 30, 2010, as well as an increase in the total budget amount
to $28,230,800. The final modification de-obligated a portion of the award and reduced the budget
amount to $27,361,200.

The purpose of the Agreement was to provide support for the Initiative to Promote Afghan Civil Society
(I-PACS) and assist in the expansion of a vibrant Afghan civil society through capacity building and
technical assistance, implementation of an enabling non-governmental organization law, and the award
and administration of small grants to civil society organizations. A particular emphasis was placed on
supporting women-focused civil society organizations. The goal of the I-PACS project was to increase
the role and viability of Afghan civil society. Throughout the life of the project, Counterpart worked to
implement the following four program components that were critical to the successful execution of the I-
PACS project:

   1. To ensure informed policy and just resource allocation decisions regarding civil society in
      Afghanistan;

   2. To assist in the development and implementation of a comprehensive legal framework that
      strengthens the Non-Governmental Organization (NGO) sector;

   3. To build the capacity of Civil Society Organizations (CSOs) to design implement, manage,
      monitor and evaluate their activities effectively; and

   4. To provide funding to CSOs to implement developmental and advocacy projects.

The Office of the Special Inspector General for Afghanistan Reconstruction (SIGAR) contracted with
Mayer Hoffman McCann P.C. (MHM) to perform a Financial Audit of Costs Incurred under the
Agreement for the period January 3, 2005 through September 30, 2010.


Objectives, Scope and Methodology

Objectives

The objectives of the audit include the following:




                                                     1
                             COUNTERPART INTERNATIONAL, INC.

                               Financial Audit of Costs Incurred Under
                          Cooperative Agreement No. 306-A-00-05-00511-00

                      For the Period January 3, 2005 through September 30, 2010


SUMMARY

   •    Internal Controls – Evaluate and obtain a sufficient understanding of Counterpart’s internal
        controls related to the award; assess control risk; and identify and report on significant
        deficiencies including material internal control weaknesses.

   •    Compliance – Perform tests to determine whether Counterpart complied, in all material
        respects, with the award requirements and applicable laws and regulations; and identify and
        report on instances of material noncompliance with terms of the award and applicable laws and
        regulations, including potential fraud or abuse that may have occurred.

   •    Corrective Action on Prior Findings and Recommendations – Determine and report on whether
        Counterpart has taken adequate corrective action to address findings and recommendations
        from previous engagements that could have a material effect on the Fund Accountability
        Statement.

   •    The Fund Accountability Statement (FAS) – Express an opinion on whether the FAS for the
        award presents fairly, in all material respects, revenues received, costs incurred, items directly
        procured by the U.S. Government and fund balance for the period audited in conformity with the
        terms of the award and generally accepted accounting principles or other comprehensive basis
        of accounting.


Scope

The scope of this audit included all costs incurred during the period January 3, 2005 through
September 30, 2010 under the Agreement. Testing of indirect costs was limited to determining whether
indirect costs were calculated and charged to the U.S. Government in compliance with the negotiated
indirect cost rate agreement.


Methodology

In order to accomplish the objectives of this audit, we designed our audit procedures to include the
following:

Entrance Conference

An entrance conference was held via conference call on June 18, 2013.              Participants included
representatives of Counterpart, SIGAR and USAID.




                                                    2
                             COUNTERPART INTERNATIONAL, INC.

                               Financial Audit of Costs Incurred Under
                          Cooperative Agreement No. 306-A-00-05-00511-00

                     For the Period January 3, 2005 through September 30, 2010


SUMMARY

Planning

During our planning phase, we performed the following:

   •   Obtained an understanding of Counterpart;
   •   Reviewed the Agreement and modifications;
   •   Reviewed regulations specific to USAID that are applicable to the Agreement;
   •   Performed a financial reconciliation; and
   •   Selected samples based on our approved sampling techniques. According to the approved
       Audit Plan, we used the detailed accounting records that were reconciled to the financial
       reports, and based upon the risk assessed included as part of the approved Audit Plan, we
       performed data mining to assess individual expenditure accounts and transactions that were
       considered to be high or medium risk for inclusion in our test of transactions. If the population of
       a given cost category tended to be large in number of transactions and more homogeneous in
       nature, we selected a statistical sample of the costs. The sample size tested was based upon a
       95% confidence level with 5% maximum tolerable error rate. The sample was selected on a
       random basis. All other cost categories and/or accounts for which it was not appropriate to
       select a statistical sample, we selected the sample on a judgmental basis. Our sampling
       methodology for judgmental samples was as follows:

           o   For related party transactions, we tested 100% of the transactions.
           o   For high risk cost categories, we sampled at least 50% of the dollar value of the account.
           o   For medium risk cost categories, we sampled at least 20% of the dollar value of the
               account.
           o   For low risk cost categories, we sampled 10% of the dollar value of the account, not to
               exceed 50 transactions in total for all accounts comprising low risk cost categories.

       For those cost categories and/or accounts that were selected on a statistical basis, we
       calculated an error rate and projected the results to the population. If the results for a
       judgmental sample indicated a material error rate, our audit team consulted with the Audit
       Manager and Project Director as to whether the sample size should be expanded. If it appeared
       that based upon the results of a judgmental sample, an entire account was deemed not
       allowable, we did not expand our testing, but instead questioned the entire account.

Internal Control Related to the FAS

We reviewed Counterpart’s internal controls related to the FAS. This review was accomplished through
interviews with management and key personnel, review of policies and procedures, identifying key
controls within significant transaction cycles, and testing those key controls.




                                                    3
                            COUNTERPART INTERNATIONAL, INC.

                              Financial Audit of Costs Incurred Under
                         Cooperative Agreement No. 306-A-00-05-00511-00

                     For the Period January 3, 2005 through September 30, 2010


SUMMARY

Compliance with Agreement Requirements and Applicable Laws and Regulations

We reviewed the Agreement and modifications and documented all compliance requirements that could
have a direct and material effect on the FAS. We assessed inherent and control risk as to whether
material noncompliance could occur. Based upon our risk assessment, we designed procedures to test
a sample of transactions to ensure compliance.

Corrective Action on Prior Audit Recommendations

We requested all reports from previous engagements in order to evaluate the adequacy of corrective
actions taken on findings and recommendations that could have a material effect on the FAS. See the
Review of Prior Findings and Recommendations subsection of this Summary for this analysis.

Fund Accountability Statement

In reviewing the FAS, we performed the following:

   •   Reconciled the costs on the FAS to the Agreement and general ledger;
   •   Traced receipt of funds to the accounting records; and
   •   Sampled and tested the costs incurred to ensure the costs were allowable, allocable to the
       Agreement and reasonable.

Exit Conference

An exit conference was held via conference call on September 16, 2013. Participants included
Counterpart, SIGAR and USAID. During the exit conference, we discussed the preliminary results of
the audit and established a timeline for providing any final documentation for consideration and
reporting.


Summary of Results

Our audit of the costs incurred by Counterpart under the Agreement with USAID identified the following
matters:


Auditor’s Opinion on FAS

We issued a qualified opinion on the fairness of the presentation of the FAS based upon the
identification of $815,317 of questioned costs, which represents a material misstatement of the FAS.
The ultimate determination of whether the identified questioned costs are to be accepted or disallowed
rests with USAID.


                                                    4
                             COUNTERPART INTERNATIONAL, INC.

                               Financial Audit of Costs Incurred Under
                          Cooperative Agreement No. 306-A-00-05-00511-00

                      For the Period January 3, 2005 through September 30, 2010


SUMMARY

Questioned Costs

There are two categories of questioned costs, ineligible and unsupported. Ineligible costs are those
costs that are deemed to not be allowable in accordance with the terms of the Agreement or applicable
laws and regulations, including 22 CFR Part 226 and Office of Management and Budget (OMB) Circular
A-122. Unsupported costs are those costs for which no or inadequate supporting documentation was
provided for our review. A summary of questioned costs is as follows.

Ineligible Costs

Our audit identified no costs that were deemed to be ineligible.

Unsupported Costs

Counterpart could not provide records, or provided insufficient records, to support transactions selected
for testing in all cost categories, resulting in total questioned costs of $815,317. See Finding 2013-1 in
the Findings and Responses section of this report.


Internal Control Findings

Internal control findings are classified into three categories, deficiency, significant deficiency, and
material weakness. A deficiency in internal control exists when the design or operation of a control
does not allow management or employees, in the normal course of performing their assigned functions,
to prevent, or detect and correct, misstatements on a timely basis. A significant deficiency is a
deficiency, or a combination of deficiencies, in internal control that is less severe than a material
weakness, yet important enough to merit attention by those charged with governance. A material
weakness is a deficiency, or a combination of deficiencies, in internal control, such that there is a
reasonable possibility that a material misstatement of the FAS will not be prevented, or detected and
corrected on a timely basis. A summary of the internal control findings noted as a result of the audit are
as follows:

Material Weaknesses

The following material weakness was reported.

      Finding                                                                       Auditee’s
      Number              Internal Control Finding – Material Weaknesses           Concurrence
      2013-1       Counterpart could not provide records, or provided                Partially
                   insufficient records, to support transactions selected for         Agree
                   testing in all cost categories, resulting in questioned costs
                   of $815,317.



                                                     5
                              COUNTERPART INTERNATIONAL, INC.

                                Financial Audit of Costs Incurred Under
                           Cooperative Agreement No. 306-A-00-05-00511-00

                       For the Period January 3, 2005 through September 30, 2010


SUMMARY

Significant Deficiencies

No significant deficiencies were reported.

Deficiencies

No deficiencies were reported.


Compliance Findings

As part of obtaining reasonable assurance about whether the FAS is free from material misstatement,
we performed tests of its compliance with certain provisions of the Agreement and other laws and
regulations, noncompliance with which could have a direct and material effect on the determination of
FAS. The results of our tests disclosed the following compliance finding as described in the Findings
and Responses section of this report.

         Finding                                                                   Auditee’s
         Number                          Compliance Finding                       Concurrence
         2013-2     No documentation was provided to support that                   Agree
                    Counterpart conducted reviews of the Excluded Parties List
                    System (EPLS) prior to entering into vendor contracts to
                    verify that the vendors were not suspended, debarred or
                    otherwise excluded from receiving Federal funds.



Summary of Counterpart’s Responses to Findings

The following represents a summary of the responses provided by Counterpart to the findings identified
in this report. The complete responses received can be found in Appendix A to this report.

   (1)     Finding 2013-1: Counterpart indicates that documentation supporting costs was damaged
           due to a catastrophic event that occurred on June 28, 2012. However, some of the
           documentation was able to be retrieved and was provided for review. Therefore, part of the
           total questioned costs in this report should be adequately supported. In addition, Counterpart
           is in the process of developing a disaster recovery plan.

   (2)     Finding 2013-2: Counterpart indicates that starting in 2011, a system to determine vendors
           who were not been disbarred, suspended or other prohibited from receiving Federal funds
           was established.




                                                    6
                            COUNTERPART INTERNATIONAL, INC.

                              Financial Audit of Costs Incurred Under
                         Cooperative Agreement No. 306-A-00-05-00511-00

                     For the Period January 3, 2005 through September 30, 2010


SUMMARY

Review of Prior Findings and Recommendations

We reviewed the corrective actions taken to address findings and recommendations from previous
engagements or internal audits that could have a material effect on the FAS. There were two prior
internal control reviews and three Single Audit Act reports with findings and recommendations that were
included in the scope of our audit. These engagements identified 25 findings with a potential material
effect on the FAS.        Based upon our review, adequate corrective action was taken on all
recommendations. The following represents a summary of the conditions noted for each of the audits.
The details related to each finding reviewed and the adequacy of the corrective actions implemented
can be found in Appendix C to this report.


Single Audit Act Reports

Counterpart provided six Single Audit Act Reports for the years ended September 30, 2005 through
September 30, 2010. Within these reports, six findings were noted that could have a material effect on
the FAS. The conditions noted included:

   •   For the year ended September 30, 2007, a number of general ledger asset accounts had not
       been reconciled.

   •   For the year ended September 30, 2009, Counterpart did not identify Federal in-kind
       contributions from the U.S. Department of State, as well as a federal loan from the Overseas
       Private Investment Corporation (OPIC), on its Schedule of Expenditures of Federal Awards
       (SEFA).

   •   For the year ended September 30, 2010, four findings were noted:
        o In-kind inventory was not properly recorded in the financial statements.

         o   Audit schedules including the SEFA, accounts receivable, deferred revenue roll forward
             and inventory listings were not prepared by Counterpart.

         o   The Single Audit Act Report and Data Collection Form were not submitted within the
             required timeframe to the Federal Clearinghouse.

         o   Counterpart fell short on its matching requirement per the Cooperative Agreement for the
             I-PACS program by the end of the grant period in the amount of $635,000.




                                                  7
                            COUNTERPART INTERNATIONAL, INC.

                              Financial Audit of Costs Incurred Under
                         Cooperative Agreement No. 306-A-00-05-00511-00

                     For the Period January 3, 2005 through September 30, 2010


SUMMARY

Counterpart Internal Audit Review of I-PACS

Counterpart performed an internal audit review of I-PACS in June 2008. The internal audit review
identified 9 findings. The conditions noted included:

   1. Cash on hand, U.S. Dollars and/or Afghanis (AFS), kept in a safe exceeded the ceiling of
      $10,000 or AFS equivalent. Additionally, cash transferred from the bank either by the
      Accountant or Finance Officer is performed by using the office vehicle. Security measures,
      such as employing security guards, do not exist.

   2. Pre-numbered receipts were not used for any cash received in the office.

   3. Transaction approval levels as detailed in the Finance Policies and Procedures Manual are not
      followed.

   4. The Finance Officer is responsible for payroll. However, the Admin Officer calculates the final
      pay for an employee that has been terminated, which is not part of the job responsibilities of that
      position.

   5. The majority of field personnel (24 out of 39) are paid in cash and not processed through a
      bank. Salaries greater than $500 are to be processed through the bank.

   6. A Goods Received Note or Delivery Note is not prepared at the time of receipt of goods from an
      external source.

   7. An issuance note was not used for the issuance of assets or equipment. Beginning in June
      2008, an Inventory Control Form was used in place of the issuance note, but only for
      information technology equipment.

   8. A list of the top vendors is not maintained by the Admin Department for regular procurements as
      recommended by the Finance Policies and Procedures Manual.

   9. Vehicle and Generator Logs are maintained but fuel consumption of a vehicle is not calculated
      on the face of log books.

Counterpart also performed an internal audit review of I-PACS’ project office operations during a field
visit in May 2009. The internal audit review identified 10 findings. The conditions noted included:

   1. A surprise cash count needs to be conducted at least once a month by an independent person
      outside of the Finance Office (the Chief of Party (CoP) or the Deputy Chief of Party DCoP).

   2. The official Cash Receipts Form, which is included as an Exhibit in the Finance Policies and



                                                   8
                            COUNTERPART INTERNATIONAL, INC.

                              Financial Audit of Costs Incurred Under
                         Cooperative Agreement No. 306-A-00-05-00511-00

                    For the Period January 3, 2005 through September 30, 2010


SUMMARY

     Procedures Manual, needs to be printed and issued by the Petty Cash Custodian when
     receiving cash refunds from employees.

  3. Timesheets and leave forms need to be reviewed and attached to the monthly payroll register.

  4. Travel authorizations need to be issued for all official trips outside of the employee’s duty station
     for administrative approval and to clarify the traveler’s per diem allowance and/or other
     entitlements, if any.

  5. A leave slip is needed for all absences taken by an employee and is to be approved by the
     employee’s supervisor. The approved leave slip must be attached to the timesheet, which is
     attached to, or referenced to, the payroll register.
  6. The cost of insurance needs to be charged to the proper account.

  7. Proof of Headquarters’ approval of procurements in the amount of $10,000 and greater needs to
     be attached to the procurement document and to the payment voucher.

  8. The amount of $2,510.99, which was spent on a farewell party in honor of the former CoP, is
     reimbursed to the I-PACS project out of Negotiated Indirect Cost Rate Agreement (NICRA)
     funds.

  9. A Bill for Collections in the amount of $834 was issued to the former CoP, representing a refund
     of an erroneous payment made to the former CoP.

  10. The fixed assets register needs to be updated prior to the end of each fiscal year.




                                                   9
Board of Directors
Counterpart International, Inc.
2345 Crystal Drive, Suite 301
Arlington, Virginia 22202



                            INDEPENDENT AUDITORS’ REPORT
                          ON FUND ACCOUNTABILITY STATEMENT


We have audited the Fund Accountability Statement of Counterpart International, Inc.
(Counterpart) for Cooperative Agreement Number 306-A-00-05-00511-00 (Agreement) with the
United States Agency for International Development (USAID) for the period January 3, 2005
through September 30, 2010. The Fund Accountability Statement is the responsibility of
Counterpart’s management. Our responsibility is to express an opinion on the Fund
Accountability Statement based on our audit.

We conducted our audit of the Fund Accountability Statement in accordance with Government
Auditing Standards issued by the Comptroller General of the United States. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
Fund Accountability Statement is free of material misstatement. An audit includes examining,
on a test basis, evidence supporting the amounts and disclosures in the Fund Accountability
Statement. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall Fund Accountability
Statement presentation. We believe that our audit provides a reasonable basis for our opinion.

We identified several transactions totaling $815,317 that were questionable based upon our
review of the underlying support for the specified transactions. The ultimate determination of
whether the identified questioned costs are to be accepted or disallowed rests with USAID.

In our opinion, except for the possible effects of the matter described in the preceding
paragraph and the ultimate determination and resolution of the identified questioned costs, the
Fund Accountability Statement referred to above presents fairly, in all material respects,
program revenues, costs incurred and reimbursed, and items and technical assistance directly
procured by USAID for the indicated period in accordance with the terms of the Agreement and
in conformity with the basis of accounting described in Note 2.

In accordance with Government Auditing Standards, we have also issued our reports dated
December 2, 2013 on our consideration of Counterpart’s internal control over financial reporting
and our tests of its compliance with certain provisions of laws and regulations. Those reports
are an integral part of an audit performed in accordance with Government Auditing Standards



                                              10
Board of Directors
Counterpart International, Inc.
2345 Crystal Drive, Suite 301
Arlington, Virginia 22202

and should be read in conjunction with this Independent’s Auditor’s Report in considering the
results of our audit.

This report is intended for the information of Counterpart International, Inc., the United States
Agency for International Development, and the Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18
USC 1905 should be considered before any information is released to the public.




Irvine, California
December 2, 2013




                                               11
                                            Counterpart International, Inc.

                                        Financial Audit of Costs Incurred under
                                   Cooperative Agreement No. 306-A-00-05-00511-00

                                               Fund Accountability Statement

                             For the Period January 3, 2005 through September 30, 2010



                                                                                 Questioned Costs
                                         Budget            Actual      Ineligible Unsupported          Total     Notes
Revenues:
   306-A-00-05-00511-00             $ 27,361,200      $ 27,336,201     $     -       $        -    $       -      (3)

Total revenues                          27,361,200        27,336,201         -                -            -

Costs incurred:
   Salaries and fringe benefits          5,923,461         5,900,208         -           102,835       102,835    (4)
   Subawards                             1,606,855         1,519,306         -            12,870        12,870    (5)
   Grant programs                        9,792,583         9,677,523         -           220,570       220,570    (6)
   Other direct costs and travel         6,705,887         6,705,888         -           352,855       352,855    (7)
   Indirect costs                        3,332,414         3,376,599         -           126,187       126,187    (8)

Total costs incurred                    27,361,200        27,179,524         -           815,317       815,317

Outstanding fund balance            $           -     $     156,677    $     -       $   (815,317) $ (815,317)    (9)




                                        See Notes to Fund Accountability Statement

                                                            12
                           COUNTERPART INTERNATIONAL, INC.

                             Financial Audit of Costs Incurred Under
                        Cooperative Agreement No. 306-A-00-05-00511-00

                              Notes to Fund Accountability Statement

                    For the Period January 3, 2005 through September 30, 2010


(1)   Status and Operation

      Counterpart International, Inc. (Counterpart) is a non-profit international development
      organization whose mission is to empower vulnerable people to implement innovative and
      enduring solutions to social, economic and environmental challenges. Established in 1965,
      Counterpart has forged partnerships in over 65 countries and its staff currently operates in over
      20 countries.

      On January 3, 2005, the United States Agency for International (USAID) awarded Cooperative
      Agreement No. 306-A-00-05-00511-00 (Agreement) to Counterpart International, Inc.
      (Counterpart) in the amount of $15,535,361, of which $1,000,000 was obligated and $2,330,304
      represented a non-Federal cost-sharing amount. The initial period of performance was from
      January 3, 2005 through January 2, 2008. The Agreement was modified a total of 14 times,
      resulting in an extension of the period of performance through September 30, 2010, as well as
      an increase in the total budget amount to $28,230,800. The final modification de-obligated a
      portion of the award and reduced the budget amount to $27,361,200.

      The purpose of the Agreement was to provide support for the Initiative to Promote Afghan Civil
      Society (I-PACS) and assist in the expansion of a vibrant Afghan civil society through capacity
      building and technical assistance, implementation of an enabling non-governmental
      organization law, and the award and administration of small grants to civil society organizations.
      A particular emphasis was placed on supporting women-focused civil society organizations.
      The goal of the I-PACS project was to increase the role and viability of Afghan civil society.
      Throughout the life of the project, Counterpart worked to implement the following four program
      components that were critical to the successful execution of the I-PACS project.

       1. To ensure informed policy and just resource allocation decisions regarding civil society in
          Afghanistan;

       2. To assist in the development and implementation of a comprehensive legal framework that
          strengthens the Non-Governmental Organization (NGO) sector;

       3. To build the capacity of Civil Society Organizations (CSOs) to design implement, manage,
          monitor and evaluate their activities effectively; and

       4. To provide funding to CSOs to implement developmental and advocacy projects.




                                                  13
                           COUNTERPART INTERNATIONAL, INC.

                             Financial Audit of Costs Incurred Under
                        Cooperative Agreement No. 306-A-00-05-00511-00

                              Notes to Fund Accountability Statement

                                           (Continued)


(2)   Summary of Significant Accounting Policies

      (a)    Basis of Accounting

             The Fund Accountability Statement has been prepared in accordance with methods of
             preparation that are prescribed or permitted by USAID. Under these methods of
             preparation, revenues are reported when received. This practice differs in some
             respects from generally accepted accounting principles which provide for revenues to be
             reported when earned. The costs in the schedule are reported when incurred.

      (b)    Foreign Currency Conversion Method

             Counterpart converts its expenses that were paid in local currency (Afghanis) into
             reporting currency (U.S. Dollar) by applying an average monthly rate based upon the
             bank rates used to transfer funds between U.S. dollar account and Afghanis account.

      (c)    Questioned Costs

             There are two categories of questioned costs, ineligible and unsupported. Ineligible
             costs are those costs that are deemed to not be allowable in accordance with the terms
             of the Agreement or applicable laws and regulations, including 22 CFR Part 226 and
             Office of Management and Budget (OMB) Circular A-122. Unsupported costs are those
             costs for which no or inadequate supporting documentation was provided for our review.


(3)   Revenues

      As of September 30, 2010, Counterpart has reported $27,336,201 in revenue from USAID
      under the Agreement. For the period January 3, 2005 through September 30, 2010,
      Counterpart has invoiced a total of $27,179,524 to USAID. The balance of $156,677 represents
      an amount due to USAID. See Note 10 for details on the settlement of this amount.


(4)   Salaries and Fringe Benefits

      Counterpart reported salaries and fringe benefits costs in the amount of $5,900,208 for the
      period January 3, 2005 through September 30, 2010. Counterpart did not have an approved
      fringe benefit rate. As such, it reported actual fringe benefits incurred. Unsupported salaries
      and fringe benefits consisted of the following. See Finding 2013-1 in the Findings and
      Responses section of this report. Also, see Note 8 for details of the associated indirect costs
      applicable to this cost category.




                                                14
                            COUNTERPART INTERNATIONAL, INC.

                              Financial Audit of Costs Incurred Under
                         Cooperative Agreement No. 306-A-00-05-00511-00

                                Notes to Fund Accountability Statement

                                               (Continued)


(4)   Salaries and Fringe Benefits (Continued)

                                                                       Number of
                                                                      Transactions
                               Observation                             With Errors       Amount
          No documentation provided to support bonus for HQ staff           1        $     3,000
          No documentation provided to support local staff salaries         3             20,543
          Missing timesheets and lack of payroll certification for
           local staff                                                     1              13,468
          Missing timesheet and payroll register for local staff           1               2,200
          No documentation provided to support stipends for HQ
           staff                                                           2               1,132
          No documentation provided to support field staff salaries        4              36,095
          No documentation provided to support fringe benefits             9              26,397

            Total questioned salaries and fringe benefits                 21         $102,835


(5)   Subawards

      Counterpart reported subawards costs in the amount of $1,519,306 for the period January 3,
      2005 through September 30, 2010. Unsupported subawards costs consisted of 2 transactions
      totaling $12,870 for which there was no authorized signature approving the payment. See
      Finding 2013-1 in the Findings and Responses section of this report. Also, see Note 8 for details
      of the associated indirect costs applicable to this cost category.


(6)   Grant Programs

      Counterpart reported grant programs costs in the amount of $9,677,523 for the period January
      3, 2005 through September 30, 2010. Unsupported grant programs costs consisted of 4
      transactions totaling $220,570 for which no expenditure vouchers were provided. See Finding
      2013-1 in the Findings and Responses section of this report. Also, see Note 8 for details of the
      associated indirect costs applicable to this cost category.


(7)   Other Direct Costs and Travel

      Counterpart reported other direct costs and travel in the amount of $6,705,888 for the period
      January 3, 2005 through September 30, 2010. Unsupported other direct costs and travel
      consisted of the following. See Finding 2013-1 in the Findings and Responses section of this
      report. Also, see Note 8 for details of the associated indirect costs applicable to this cost
      category.



                                                     15
                               COUNTERPART INTERNATIONAL, INC.

                                 Financial Audit of Costs Incurred Under
                            Cooperative Agreement No. 306-A-00-05-00511-00

                                   Notes to Fund Accountability Statement

                                                  (Continued)


(7)   Other Direct Costs and Travel (Continued)

                                                                          Number of
                                                                         Transactions
                                   Observation                            With Errors    Amount
           No documentation provided to support contractual costs              2        $ 44,134
           Incorrect invoice provided and no approval of payment               1           6,300
           Missing invoice to support contractual costs                        2           7,767
           No documentation provided to support training costs                 7          37,486
           Missing invoice to support training costs                           3          31,604
           No documentation provided to support travel costs                  10          54,673
           Missing invoice to support travel costs                            29           6,095
           No documentation provided to support equipment costs                1          13,986
           Missing invoice to support equipment costs                         10          24,780
           No documentation provided to support other direct costs             9          75,611
           Missing invoice to support other direct costs                      69          50,419

               Total questioned other direct costs and travel               143         $352,855


(8)   Indirect Costs

      Counterpart reported indirect costs in the amount of $3,376,599 for the period January 3, 2005
      through September 30, 2010. The final negotiated indirect cost rates were as follows.

                                 Effective Period
              Type             From         Through       Overhead (a)   Sub-Handling(b)
          Final               10/01/04      09/30/05        27.90%             n/a
          Final               10/01/05      09/30/06        28.79%             n/a
          Final               10/01/06      09/30/07        28.27%             n/a
          Final               10/01/07      09/30/08        27.95%             n/a
          Final               10/01/08      09/30/09        24.02%             n/a
          Final               10/01/09      09/30/10        23.07%           5.29%

      The basis of allocation for the indirect costs is as follows:

         (a)      Program costs excluding in-kind contributions (i.e., donated services, equipment and
                  supplies), pass-through costs, and subgrants of $25,000 or less.

         (b)      Total subcontract and subgrant cost.

      The appropriate overhead rate for each year was applied to the individual costs questioned. A
      summary of associated questioned indirect costs by cost category is as follows:




                                                        16
                            COUNTERPART INTERNATIONAL, INC.

                              Financial Audit of Costs Incurred Under
                         Cooperative Agreement No. 306-A-00-05-00511-00

                               Notes to Fund Accountability Statement

                                               (Continued)


(8)    Indirect Costs (Continued)

                                                                              Associated
                                                             Questioned       Questioned
                         Cost Category                         Cost          Indirect Cost
           Salaries and fringe benefits (Note 4)             $102,835         $ 28,883
           Subawards (Note 5) *                                12,870                  -
           Grant programs (Note 6) **                         220,570                  -
           Other direct costs and travel (Note 7)             352,855            97,304

             Total questioned indirect costs                 $689,130         $126,187

       * There are no associated indirect costs for subawards as the subawards were less than
       $25,000 and incurred prior to October 1, 2009.

       ** There are no associated indirect costs for grant programs as all of the questioned costs within
       grant programs were incurred prior to October 1, 2009.


(9)    Outstanding Fund Balance

       As of September 30, 2010, there was an outstanding amount due to USAID in the amount of
       $156,677, which represents amounts received from USAID in excess of costs incurred. See
       Note 10 for details on the settlement of this amount.


(10)   Subsequent Event

       Counterpart filed its final Federal Financial Report (SF425) with USAID on October 7, 2013.
       The final report reflects adjustments made to program costs based upon the final negotiated
       indirect cost rate as issued by USAID for the period October 1, 2009 through September 30,
       2010. Based upon the final SF425 filed, there is a balance due to USAID in the amount of
       $156,677. This amount was paid to USAID on October 8, 2013.




                                                    17
Board of Directors
Counterpart International, Inc.
2345 Crystal Drive, Suite 301
Arlington, Virginia 22202



               INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL


We have audited the Fund Accountability Statement of Counterpart International, Inc.
(Counterpart) for Cooperative Agreement Number 306-A-00-05-00511-00 (Agreement) with the
United States Agency for International Development (USAID) for the period January 3, 2005
through September 30, 2010, and have issued our report thereon dated December 2, 2013. We
conducted our audit in accordance with auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States.

Management of Counterpart is responsible for establishing and maintaining effective internal
control over financial reporting. In planning and performing our audit, we considered
Counterpart’s internal control over financial reporting, with respect to the Agreement, as a basis
for designing our auditing procedures for the purpose of expressing our opinion on the Fund
Accountability Statement, but not for the purpose of expressing an opinion on the effectiveness
of Counterpart’s internal control over financial reporting with respect to the Agreement.
Accordingly, we do not express an opinion on the effectiveness of Counterpart’s internal control
over financial reporting with respect to the Agreement.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and was not designed to identify all deficiencies
in internal control over financial reporting that might be deficiencies, significant deficiencies or
material weaknesses. However, as described in the accompanying Findings and Responses,
we identified one deficiency in internal control over financial reporting that we consider to be a
material weakness.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis. We consider the deficiency described in the
accompanying Findings and Reponses as item 2013-1 to be a material weakness.




                                                18
Board of Directors
Counterpart International, Inc.
2345 Crystal Drive, Suite 301
Arlington, Virginia 22202

Counterpart’s response to the finding identified in our audit is described in the accompanying
Findings and Responses, and included verbatim in Appendix A. We did not audit Counterpart’s
response and, accordingly, we express no opinion on it.

This report is intended for the information of Counterpart International, Inc., United States
Agency for International Development, and the Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18
USC 1905 should be considered before any information is released to the public.




Irvine, California
December 2, 2013




                                             19
Board of Directors
Counterpart International, Inc.
2345 Crystal Drive, Suite 301
Arlington, Virginia 22202



                   INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE


We have audited the Fund Accountability Statement of Counterpart International, Inc.
(Counterpart) for Cooperative Agreement Number 306-A-00-05-00511-00 with the United States
Agency for International Development (USAID) for the period January 3, 2005 through
September 30, 2010, and have issued our report thereon dated December 2, 2013. We
conducted our audit in accordance with auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States

As part of obtaining reasonable assurance about whether Counterpart’s Fund Accountability
Statement is free of material misstatement, we performed tests of its compliance with certain
provisions of laws, regulations, contracts, and grant agreements, noncompliance with which
could have a direct and material effect on the determination of Fund Accountability Statement
amounts. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion. The results of our
tests disclosed an instance of noncompliance or other matters that is required to be reported
under Government Auditing Standards and which is described in the accompanying Findings
and Responses as item 2013-2.

Counterpart’s response to the finding identified in our audit is described in the accompanying
Findings and Responses, and included verbatim in Appendix A. We did not audit Counterpart’s
response and, accordingly, we express no opinion on it.

This report is intended for the information of Counterpart International, Inc., United States
Agency for International Development, and the Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18
USC 1905 should be considered before any information is released to the public.




Irvine, California
December 2, 2013



                                             20
                               COUNTERPART INTERNATIONAL, INC.

                                 Financial Audit of Costs Incurred Under
                            Cooperative Agreement No. 306-A-00-05-00511-00

                                            Findings and Responses

                       For the Period January 3, 2005 through September 30, 2010


2013-1: Missing or Insufficient Source Documentation to Support Expenses

Condition:
Counterpart could not provide records, or provided insufficient records, to support transactions selected
for testing in all cost categories. Specifically, the following observations were noted:

                                                                            Number of
                                                                           Transactions
                                Observation                                 With Errors       Amount
  Salaries and fringe benefits:
    No documentation provided to support bonus for HQ staff                      1        $     3,000
    No documentation provided to support local staff salaries                    3             20,543
    Missing timesheets and lack of payroll certification for local staff         1             13,468
    Missing timesheet and payroll register for local staff                       1              2,200
    No documentation provided to support stipends for HQ staff                   2              1,132
    No documentation provided to support field staff salaries                    4             36,095
    No documentation provided to support fringe benefits                         9             26,397

  Subtotal salaries and fringe benefits                                         21            102,835

  Subawards:
    No authorized signature approving payment                                    2             12,870

  Subtotal subawards                                                             2             12,870

  Grant programs:
    Missing expenditure vouchers                                                 4            220,570

  Subtotal grant programs                                                        4            220,570

  Other direct costs and travel:
    No documentation provided to support contractual costs                       2             44,134
    Incorrect invoice provided and no approval of payment                        1              6,300
    Missing invoice to support contractual costs                                 2              7,767
    No documentation provided to support training costs                          7             37,486
    Missing invoice to support training costs                                    3             31,604
    No documentation provided to support travel costs                           10             54,673
    Missing invoice to support travel costs                                     29              6,095
    No documentation provided to support equipment costs                         1             13,986
    Missing invoice to support equipment costs                                  10             24,780
    No documentation provided to support other direct costs                      9             75,611
    Missing invoice to support other direct costs                               69             50,419

  Subtotal other direct costs and travel                                       143            352,855

  Total costs for which missing or insufficient support was provided           170        $689,130



                                                         21
                            COUNTERPART INTERNATIONAL, INC.

                              Financial Audit of Costs Incurred Under
                         Cooperative Agreement No. 306-A-00-05-00511-00

                                       Findings and Responses

                                             (Continued)


2013-1: Missing or Insufficient Source Documentation to Support Expenses (Continued)

Cause:
Counterpart did not have an adequately implemented record retention policy that would allow for the
proper storage and timely retrieval of supporting documentation. Counterpart believes that the majority
of the missing documentation was contained in boxes that were destroyed in a storm in June 2012 at its
off-site archive vendor. However, no documentation to support this claim was provided.


Criteria:
22 CFR 226.53, Retention and access requirement for records, states, in part:

       “…(b) Financial records, supporting documents, statistical records, and all other records
       pertinent to an award shall be retained for a period of three years from the date of
       submission of the final expenditure report or, for awards that are renewed quarterly or
       annually, from the date of the submission of the quarterly or annual financial report, as
       authorized by USAID…”

Additionally, OMB Circular A-122, Attachment A, Paragraph A, Basic Considerations, states, in part:

       “…2. Factors affecting allowability of costs. To be allowable under an award, costs must
       meet the following general criteria:..

       g. Be adequately documented....”


Effect:
Failure to maintain adequate supporting documentation could result in an inability to demonstrate that
costs incurred were allowable, allocable and related to the Agreement. Total questioned costs are as
follows:

                                    Questioned      Associated           Total
           Cost Category              Cost         Indirect Cost    Questioned Cost
    Salaries and fringe benefits    $102,835         $ 28,883         $131,718
    Subawards                         12,870                 -           12,870
    Grant programs                   220,570                 -          220,570
    Other direct costs and travel    352,855            97,304          450,159

      Total questioned costs        $689,130           $126,187        $815,317




                                                  22
                            COUNTERPART INTERNATIONAL, INC.

                              Financial Audit of Costs Incurred Under
                         Cooperative Agreement No. 306-A-00-05-00511-00

                                      Findings and Responses

                                            (Continued)


2013-1: Missing or Insufficient Source Documentation to Support Expenses (Continued)

Recommendation:
   (1) We recommend that Counterpart either provide adequate documentation to USAID or return
       $815,317 for which supporting documentation was either missing or inadequate.

   (2)   We recommend that Counterpart establish a formal record retention policy and a disaster
         recovery plan. Once established, training should be provided to employees so as to ensure
         records are properly maintained, retained and able to be recovered in the event of a natural
         disaster.




                                                 23
                            COUNTERPART INTERNATIONAL, INC.

                               Financial Audit of Costs Incurred Under
                          Cooperative Agreement No. 306-A-00-05-00511-00

                                       Findings and Responses

                                              (Continued)


2013-2: Need to Review the Excluded Parties List

Condition:
For all of the 161 transactions tested, there was no documentation provided to support that Counterpart
conducted reviews of vendors in the Excluded Parties List System (EPLS) prior to entering into vendor
contracts to verify that the vendors were not suspended, debarred or otherwise excluded from receiving
Federal funds.


Cause:
During the award period of 2005 through 2010, Counterpart indicated that it did not perform an EPLS
check on the vendors, but instead relied on the vendors to certify on their own that they were not an
excluded party by completing a “Certification Regarding Terrorist Financing” form prior to entering into
vendor contracts. Beginning in 2011, Counterpart required that all commitments entered into with
Federal funding be screened against the EPLS and the Treasury Department’s Specially Designed
Nationals List (SDN).


Criteria:
22 CFR 226.13, Debarment and suspension, states:

       “USAID and recipients shall comply with the nonprocurement debarment and
       suspension common rule implementing E.O.s 12549 and 12689, Debarment and
       Suspension,” 22 CFR part 208. This common rule restricts subawards and contracts
       with certain parties that are debarred, suspended or otherwise excluded from or
       ineligible for participation in Federal assistance programs or activities.”

Additionally, Cooperative Agreement No. 306-A-00-05-00511-00, Attachment 3, Standard Provisions
for U.S., Non-Government Recipients, Section C.19, Debarment, Susupension, and Other
Responsibility Matters Responsibility, states in part:

       “…(2). The recipient agrees that, unless authorized by the Agreement Officer, it will not
       knowingly enter into any subagreements or contracts under this grant with a person or
       entity that is included on the Excluded Parties List System (http://epls.arnet.gov)...”


This criteria requires that Counterpart not do business with excluded parties. As such, Counterpart
must review the excluded parties list prior to entering into contracts and document evidence of this
review in order to demonstrate it has complied with the criteria.




                                                  24
                            COUNTERPART INTERNATIONAL, INC.

                              Financial Audit of Costs Incurred Under
                         Cooperative Agreement No. 306-A-00-05-00511-00

                                      Findings and Responses

                                             (Continued)


2013-2: Need to Review the Excluded Parties List (Continued)

Effect:
By not checking the EPLS for vendors excluded from Federal procurement and nonprocurement
programs, Federal funds might be paid to a vendor that is debarred, suspended, or otherwise prohibited
from receiving Federal funds. None of the vendors were determined to be on the excluded parties list
and therefore no costs were questioned in this finding.


Recommendation:
No recommendation is warranted as Counterpart instituted policies and procedures in 2011,
subsequent to the period under audit, to perform the required EPLS checks.




                                                 25
                                                                                         APPENDIX A

                            COUNTERPART INTERNATIONAL, INC.

                              Financial Audit of Costs Incurred Under
                         Cooperative Agreement No. 306-A-00-05-00511-00

                         Counterpart International, Inc. Response to Findings

                     For the Period January 3, 2005 through September 30, 2010


Included on the following pages is Counterpart’s response received to the findings identified in this
report. In addition to the narrative response, Counterpart provided documentation that, in its opinion,
supports its position on various findings. Due to the voluminous and proprietary nature of this
documentation, it has not been included within this report. The documentation has been provided to
SIGAR under separate cover.




                                                  26
                                                                                          APPENDIX A


Counterpart International, Inc.
Responses to Financial Audit of Costs
Incurred Under Cooperative Agreement No. 306-A-00-05-00511-11
For the Period January 3, 2005 through September 30, 2010


Page 23

2013-1: Missing or Insufficient Source Documentation to Support Expenses (Continued)

Recommendation:
(1) We recommend that Counterpart either provide adequate documentation to USAID or return
$815,317 for which supporting documentation was either missing or inadequate.

Management Response:

On June 28, 2012 a catastrophic event at the site of Counterpart International’s off-site archive vendor,
Recall Corporation, resulted in the destruction of 191 boxes identified by the vendor as belonging to
Counterpart International. In the three-day recovery effort, another 12 Counterpart boxes were also
damaged beyond use. The incident and details of the damage sustained are conveyed in the enclosed
letter from Recall Corporation along with the Certificate of Destruction for the original 191 boxes. This
report along with the Certification of Destruction was provided to the auditors. Counterpart was able to
recover some supporting documentation from virtual records through the efforts of the entire
organization over the past five months. As recovered documents were found, they were made available
to the audit firm.

Please see the attached report and resubmitted scanned documents that list the questioned costs and
identify the most current status on missing or incomplete documentation. Of the $815,317 questioned
costs, Counterpart believes it has adequate documentation for $514,168.

(2) We recommend that Counterpart establish a formal record retention policy and a disaster
recovery plan. Once established, training should be provided to employees so as to ensure
records are properly maintained, retained and able to be recovered in the event of a natural
disaster.

Management Response:

Counterpart International does have a formal document retention policy. However, it is in the process
of developing a disaster recovery plan which will include a central, virtual depository of all necessary
documents.




                                                   27
                                                                                         APPENDIX A


Counterpart International, Inc.
Responses to Financial Audit of Costs
Incurred Under Cooperative Agreement No. 306-A-00-05-00511-11
For the Period January 3, 2005 through September 30, 2010


Page 25

Finding Number: 2013-2; Need to Review the Excluded Parties List (Continued)

Recommendation:

(1) We recommend that Counterpart establish procedures to prompt checks of the System for Award
Management (SAM) to verify that the vendors with which it does or plans to do business are not
excluded parties. SAM has replaced the EPLS.

Management Response:

During the audit period of 2005 through 2010, all vendors had a “Certification Regarding Terrorist
Financing” form on file. As of 2011, Counterpart has established written procedures to ensure that all
vendors have been vetted through the central system to determine that they have not been disbarred,
suspended or otherwise prohibited from receiving Federal funds.




                                                  28
                                                                                        APPENDIX B

                            COUNTERPART INTERNATIONAL, INC.

                              Financial Audit of Costs Incurred Under
                         Cooperative Agreement No. 306-A-00-05-00511-00

                     Auditors’ Rebuttal to Counterpart’s Response to the Findings

                     For the Period January 3, 2005 through September 30, 2010


Counterpart partially disagreed to 1 of the findings presented in this report. We have reviewed its
management response and offer the following rebuttal to the finding to which it disagreed.


2013-1: Missing or Insufficient Source Documentation to Support Expenses

For recommendation number 1, Counterpart believes that since additional documents were located and
made available for our review, $514,168 of the $815,317 questioned costs should be considered as
adequately supported. Counterpart was provided an additional week beyond the exit conference in
order to provide records, which it did. We accepted those records and revised the report accordingly.
Counterpart submitted additional records with its management response to the findings included in this
report. As the date for providing documentation had passed, we did not consider this additional
documentation. We have forwarded the additional documentation that was submitted with its
management response to SIGAR. Our recommendation remains unchanged.




                                                 29
                                                                                            APPENDIX C

                            COUNTERPART INTERNATIONAL, INC.

                              Financial Audit of Costs Incurred Under
                         Cooperative Agreement No. 306-A-00-05-00511-00

                           Review of Prior Findings and Recommendations

                     For the Period January 3, 2005 through September 30, 2010


The following prior findings and recommendations were reviewed as part of the scope of this audit. We
have included the condition, current status of each recommendation and whether the corrective action
has been adequately implemented.


Single Audit Act Reports

Counterpart provided six Single Audit Act Reports for the years ended September 30, 2005 through
September 30, 2010. Within these reports, six findings were noted that could have a material effect on
the FAS. Based upon our review, all corrective actions have been adequately implemented. A
summary of the findings and the corrective actions implemented is as follows:

Single Audit Act Report for Year Ended September 30, 2007

   1. Condition: A number of general ledger asset accounts had not been reconciled.

       Current Status: Based upon our review of account reconciliations, Counterpart has systems in
       place to accurately reconcile all accounts and no instances of unreconciled accounts were
       noted in subsequent audits. As such, adequate corrective actions have been implemented and
       this finding has been resolved.

Single Audit Act Report for Year Ended September 30, 2009

   1. Condition: Counterpart did not identify Federal in-kind contributions from the U.S. Department
      of State, as well as a federal loan from OPIC, on its SEFA.

       Current Status: The SEFA for subsequent years identifies the U.S. Department of State as well
       as the loan from OPIC. As such, adequate corrective actions have been implemented and this
       finding has been resolved.

Single Audit Act Report for Year Ended September 30, 2010

   1. Condition: In-kind inventory was not properly recorded in the financial statements.

       Current Status: Counterpart has implemented controls to ensure that commodities are properly
       reported as of the end of the period by performing a physical inventory observation.
       Additionally, Counterpart continues to focus on commodities and improving the donated
       inventory controls and has implemented a new comprehensive plan which includes manuals,
       trainings and site visits to ensure compliance. As such, adequate corrective actions have been
       implemented and this finding has been resolved.




                                                  30
                                                                                        APPENDIX C

                            COUNTERPART INTERNATIONAL, INC.

                              Financial Audit of Costs Incurred Under
                         Cooperative Agreement No. 306-A-00-05-00511-00

                           Review of Prior Findings and Recommendations

                                             (Continued)


   2. Condition: Audit schedules including the SEFA, accounts receivable, deferred revenue roll
      forward and inventory listings were not prepared by Counterpart.

       Current Status: Per our review and inquiry, Counterpart has improved its financial systems to
       provide such information in a timely manner as it is requested. This was evidenced by
       Counterpart responding timely to all of our requests for information as part of this audit. As
       such, adequate corrective actions have been implemented and this finding has been resolved.

   3. Condition: The Single Audit Act Report and Data Collection Form were not submitted within the
      required timeframe to the Federal Clearinghouse.

       Current Status: The Single Audit Act Report and Data Collection Form for the years ended
       September 30, 2011 and 2012 were submitted within required timeframes. As such, adequate
       corrective actions have been implemented and this finding has been resolved.

   4. Condition: Counterpart fell short on its matching requirement per the Cooperative Agreement
      for the I-PACS program by the end of the grant period in the amount of $635,000.

       Current Status: In September 2011, members of the compliance team held trainings for all
       practice areas, including HQ staff and field staff on the subject of cost sharing. Additionally
       meetings were held with project teams to review cost sharing obligations and action plans were
       developed to ensure requirements were met. Furthermore, a formal cost sharing guidance
       document was developed and included templates for recording cost sharing expenses. On a go
       forward basis, adequate corrective actions have been implemented and this finding has been
       resolved.


Counterpart Internal Audit Reviews of I-PACS

Counterpart performed an internal audit review of I-PACS in June 2008. The internal audit review
identified 9 findings. Based upon our review, all corrective actions have been adequately implemented.
A summary of the findings and the corrective actions implemented is as follows:

   1. Condition: Cash on hand, U.S. Dollars and/or Afghanis (AFS), kept in a safe exceeded the
      ceiling of $10,000 or AFS equivalent. Additionally, cash transferred from the bank either by the
      Accountant or Finance Officer is performed by using the office vehicle. Security measures,
      such as employing security guards, do not exist.

       Current Status: Per our review and inquiry, we noted that the Kabul field office and guesthouse
       cash thresholds have been increased to $20,000 and $5,000, respectively, due to the nature of
       working in Afghanistan. Any amounts above these thresholds must be approved by the



                                                 31
                                                                                      APPENDIX C

                        COUNTERPART INTERNATIONAL, INC.

                          Financial Audit of Costs Incurred Under
                     Cooperative Agreement No. 306-A-00-05-00511-00

                       Review of Prior Findings and Recommendations

                                          (Continued)


   Counterpart HQ Financial Officer. Documented procedures, including the employment of
   security services and secured safes, were introduced to mitigate risks associated with
   maintaining higher cash thresholds. Currently, each trip to the bank now requires an escort, a
   driver, an armored vehicle, and one Finance staff member to secure funds to the bank and to
   safely return the staff back to the office. As such, adequate corrective actions have been
   implemented and this finding has been resolved.

2. Condition: Pre-numbered receipts were not used for any cash received in the office.

   Current Status: Per our review and inquiry, it was noted that cash is withdrawn from the bank
   only on the basis of a voucher approved by the CoP or DCoP, which clearly indicates the
   person to receive the cash. Cash withdrawn is then placed in a safe in the DCoP office, which
   requires 2 keys to open it. One key is in the possession of the DCoP, and the other key is in the
   possession of the Cash Custodian. Both staff members bring the cash into the DCoP office and
   the DCoP signs off on the amount of cash received and placed in the safe. Cash for daily
   operations is then withdrawn from the safe by the Cash Custodian. The amounts are
   documented and countersigned by the Cash Custodian and the DCoP. Cash for daily
   operations is then secured in a smaller safe located in the Finance Office. The funds received
   are accounted for during monthly reconciliations that are performed for cash on hand accounts.
   As such, adequate corrective actions have been implemented and this finding has been
   resolved.

3. Condition: Transaction approval levels as detailed in the Finance Policies and Procedures
   Manual are not followed.

   Current Status: Based upon our testing of expenditures, Counterpart has adhered to approval
   levels and has established clear delegations of authority levels for HQ and field staff, which are
   documented in its Field Office Financial Operations Manual. As such, adequate corrective
   actions have been implemented and this finding has been resolved.

4. Condition: The Finance Officer is responsible for payroll. However, the Admin Officer
   calculates the final pay for an employee that has been terminated, which is not part of the job
   responsibilities of that position.

   Current Status: Per our review and inquiry, end of employment letters that outline the relevant
   HR policies for departing employees are drafted by HR and approved by the DCoP – Finance,
   Admin, and Operations. The end of employment letters are then submitted to Finance to
   provide the basis for the calculation of the final pay. The calculation is performed by the
   Finance Officer and payment is approved by the DCoP – Finance, Admin, Operations, and the
   CoP. As such, adequate corrective actions have been implemented and this finding has been
   resolved.



                                               32
                                                                                        APPENDIX C

                         COUNTERPART INTERNATIONAL, INC.

                           Financial Audit of Costs Incurred Under
                      Cooperative Agreement No. 306-A-00-05-00511-00

                       Review of Prior Findings and Recommendations

                                          (Continued)


5. Condition: The majority of field personnel (24 out of 39) are paid in cash and not processed
   through a bank. Salaries greater than $500 are to be processed through the bank.

   Current Status: The Counterpart Kabul Field Office has set up bank accounts for its
   professional staff and the offer has been extended to all support staff. Due to specific
   circumstances related to operating in Afghanistan, such as a weak banking system, a cash-
   based economy, limited availability of Automated Teller Machines (ATMs) and lack of public
   transportation, Counterpart has been paying its support staff in cash. The total salaries paid in
   cash per pay period ranges between $8,000 and $9,000, with an average individual cash
   payment per pay period of between $450 and $500, which is within the established cash
   threshold limits. A separate payroll sheet is prepared for salaries paid in cash, and a separate
   check is issued to the Finance Officer to withdraw funds. All established security procedures
   are followed and staff is paid the same day or the next day. To the extent possible, salaries are
   paid to support staff on the day cash is withdrawn by the bank. Salaries are then paid only to
   the respective employee and the employee receiving the cash signs to confirm receipt of funds.
   As such, adequate corrective actions have been implemented and this finding has been
   resolved.

6. Condition: A Goods Received Note or Delivery Note is not prepared at the time of receipt of
   goods from an external source.

   Current Status: Based upon our testing of expenditures, we noted that delivery/receipt reports
   are prepared for any goods or materials received and are signed by two Counterpart
   employees. As such, adequate corrective actions have been implemented and this finding has
   been resolved.

7. Condition: An issuance note was not used for the issuance of assets or equipment. Beginning
   in June 2008, an Inventory Control Form was used in place of the issuance note, but only for
   information technology equipment.

   Current Status: Per our review and inquiry, Inventory Control Forms for all equipment are
   issued to respective staff. Additionally, inventory lists of all assets in a particular office space
   are issued and countersigned by the staff person located in the office and the Admin staff
   responsible for the inventory. Delivery notes are also issued for supplies and materials. As
   such, adequate corrective actions have been implemented and this finding has been resolved.

8. Condition: A list of the top vendors is not maintained by the Admin Department for regular
   procurements as recommended by the Finance Policies and Procedures Manual.

   Current Status: Per our review and inquiry, it was noted that Counterpart’s current policies do
   not require the maintenance of a list of preferred vendors. Any purchase above $500



                                               33
                                                                                            APPENDIX C

                             COUNTERPART INTERNATIONAL, INC.

                               Financial Audit of Costs Incurred Under
                          Cooperative Agreement No. 306-A-00-05-00511-00

                           Review of Prior Findings and Recommendations

                                              (Continued)


       undergoes a competitive procurement process. At the same time, a number of suppliers are
       used for particular services, such as fuel supply, water, office supplies, printing services, hotel,
       and workshop venues. Such suppliers are usually identified through Request for Proposals.
       Suppliers with contracts in excess of $25,000 undergo the required USAID vetting process. As
       such, adequate corrective actions have been implemented and this finding has been resolved.

   9. Condition: Vehicle and Generator Logs are maintained but fuel consumption of a vehicle is not
      calculated on the face of log books.

       Current Status: Based upon our testing of vehicle expenses, each of Counterpart’s company-
       owned vehicles has an assigned logbook to document the amount of fuel refill per transaction.
       As such, adequate corrective actions have been implemented and this finding has been
       resolved.

Counterpart also performed an internal audit review of I-PACS’ project office operations during a field
visit in May 2009. The internal audit review identified 10 findings. Based upon our review, Counterpart
adequately implemented the corrective actions for all 10 findings. A summary of the findings and
corrective actions implemented are as follows:

   1. Condition: A surprise cash count needs to be conducted at least once a month by an
      independent person outside of the Finance Office (the CoP or the DCoP).

       Current Status: Cash reconciliations are conducted on a regular basis and used to support
       cash replenishment. Month end cash reconciliations are conducted and certified by the Finance
       Manager and the DCoP – Finance, Admin and Operations. These reconciliations are supported
       by cash counts conducted by the Cash Custodian, Finance Manager and the CoP at the end of
       each calendar month. While surprise cash counts are not performed regularly and are not
       prescribed in written policies, the Field Office has established a number of other systems to
       ensure cash is handled properly. Cash transactions are documented and approved by the CoP
       and DCoP, cash is withdrawn from the bank only on the basis of approval by the CoP, and
       DCoP prepares a voucher indicating the person to receive the cash. Cash withdrawn is then
       placed in a safe in the DCoP office, which requires 2 keys to open it. One key is in the
       possession of the DCoP, and the other key is in the possession of the Cash Custodian. Both
       staff members bring the cash into the DCoP office and the DCoP signs off on the amount of
       cash received and placed in the safe. Cash for daily operations is then withdrawn from the safe
       by the Cash Custodian. The amounts are documented and countersigned by the Cash
       Custodian and the DCoP. Cash for daily operations is then secured in a smaller safe located in
       the Finance Office. The funds received are accounted for during monthly reconciliations that
       are performed for cash on hand accounts. As such, adequate corrective actions have been
       implemented and this finding has been resolved.




                                                   34
                                                                                       APPENDIX C

                         COUNTERPART INTERNATIONAL, INC.

                           Financial Audit of Costs Incurred Under
                      Cooperative Agreement No. 306-A-00-05-00511-00

                        Review of Prior Findings and Recommendations

                                           (Continued)


2. Condition: The official Cash Receipts Form, which is included as an Exhibit in the Finance
   Policies and Procedures Manual, needs to be printed and issued by the Petty Cash Custodian
   when receiving cash refunds from employees.

   Current Status: Cash vouchers are used to document each transaction. Cash is disbursed only
   following necessary approvals. Recipients of cash sign the refund/cash voucher to document
   receipt of cash. As such, adequate corrective actions have been implemented and this finding
   has been resolved.

3. Condition: Timesheets and leave forms need to be reviewed and attached to the monthly
   payroll register.

   Current Status: Based upon our testing of salaries and wages, we noted that this process is
   currently in place and operating effectively. Payrolls are prepared only on the basis of fully
   approved timesheets and leave requests. These are attached to the payroll payments and a
   leave tracker is also maintained and updated on a monthly basis and attached to the payroll
   register. As such, adequate corrective actions have been implemented and this finding has
   been resolved.

4. Condition: Travel authorizations need to be issued for all official trips outside of the employee’s
   duty station for administrative approval and to clarify the traveler’s per diem allowance and/or
   other entitlements, if any.

   Current Status: Based upon our testing of travel expenses, travel authorizations are issued for
   any business trip. Travel requests are cleared by the Security Office and approved by the CoP
   or DCoP. Travel advances are issued only for those trips that have been approved, and are
   calculated based upon meals and entertainment expense, lodging, and other local travel
   expenses for each particular trip. International travel is approved by the I-PACS Agreement
   Officer Representative (AOR) and internally. As such, adequate corrective actions have been
   implemented and this finding has been resolved.

5. Condition: A leave slip is needed for all absences taken by an employee and is to be approved
   by the employee’s supervisor. The approved leave slip must be attached to the timesheet,
   which is attached to, or referenced to, the payroll register.

   Current Status: Based upon our testing of salaries and wages, it was noted that Counterpart
   has implemented procedures to require that employee leave slips are completed and approved
   by the employee’s supervisor. Additionally, the leave slip is attached to the timesheet for file
   retention. As such, adequate corrective actions have been implemented and this finding has
   been resolved.




                                               35
                                                                                       APPENDIX C

                         COUNTERPART INTERNATIONAL, INC.

                           Financial Audit of Costs Incurred Under
                      Cooperative Agreement No. 306-A-00-05-00511-00

                        Review of Prior Findings and Recommendations

                                          (Continued)


6. Condition: The cost of insurance needs to be charged to the proper account.

   Current Status: In reviewing Counterpart’s general ledger, we confirmed that under the
   guidance of the Counterpart CFO, the following accounts have been established for insurance
   related costs: Account 59130 – Insurance, Commercial and Property, and Account 51525 –
   Fringe Cooperating Country National (CCN) Medical Insurance. In reviewing transactions
   coded to these accounts, the transactions are properly coded. As such, adequate corrective
   actions have been implemented and this finding has been resolved.

7. Condition: Proof of HQ’s approval of procurements in the amount of $10,000 and greater needs
   to be attached to the procurement document and to the payment voucher.

   Current Status: Based upon our review of Counterpart’s procurement policies and procedures,
   the finding as stated is not applicable and has been updated. Procurement follows established
   delegation of authority levels. Any purchase of equipment of $5,000 or above is approved by
   the I-PACS AOR. As such, adequate corrective actions have been implemented and this
   finding has been resolved.

8. Condition: The amount of $2,510.99, which was spent on a farewell party in honor of the former
   CoP, is reimbursed to the I-PACS project out of NICRA funds.

   Current Status: Per our review and inquiry, the reimbursement of $2,510.99 was completed in
   June 2009 as evidenced by an HQ journal voucher which processed the credit to the Staff
   Development account. Additionally, based upon our review of expenses charged to the
   Agreement, no costs were noted which appeared to be non-allowable. As such, adequate
   corrective actions have been implemented and this finding has been resolved.

9. Condition: A Bill for Collections in the amount of $834 was issued to the former CoP,
   representing a refund of an erroneous payment made to the former CoP.

   Current Status: A reimbursement in the amount of $834 was completed in June 2009 as
   evidenced by an HQ cash receipt entry which processed the credit to the Foreign Travel Field
   Staff account development account. As such, adequate corrective actions have been
   implemented and this finding has been resolved.

10. Condition: The fixed assets register needs to be updated prior to the end of each fiscal year.

   Current Status: Counterpart has implemented procedures to update its fixed assets register on
   a regular basis with physical inventory checks be conducted on a quarterly basis. Additionally,
   year-end inventory certifications are prepared and approved by the CoP and DCoP. As such,
   adequate corrective actions have been implemented and this finding has been resolved.



                                               36
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
   Reports and Testimonies     site (www.sigar.mil). SIGAR posts all publically released reports,
                               testimonies, and correspondence on its Web site.




To Report Fraud, Waste, and    To help prevent fraud, waste, and abuse by reporting allegations of
                               fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs
                                        •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
